NRC: OIG/98A-11 - NRC's Year 2000 Efforts Regarding Its Internal Systems
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home > NRC Library  > Document Collections > Inspector General
Reports > 1999
> OIG/98A-11
OIG/98A-11 - NRC's Year 2000 Efforts Regarding Its Internal Systems
November 17, 1998
MEMORANDUM TO:
Chairman Jackson
FROM:
Thomas J. Barchi
Assistant Inspector General for Audits
SUBJECT:
NRC'S YEAR 2000 EFFORTS REGARDING ITS INTERNAL SYSTEMS
The Office of the Inspector General has completed its initial work involving NRC's Year 2000 efforts regarding its internal systems.  On November 6, 1998, we briefed the CIO; the briefing document provided to him is attached.
Because of the pressing deadline for completing Year 2000 programs, we focused on providing information and suggestions to the agency as quickly as possible.  Therefore, we provided our input during the course of our review, rather than waiting to complete our work and issue a formal report.  We believe this approach allowed us to contribute to NRC's efforts in a timely and cooperative manner.
As outlined in the briefing paper, any issues we raised during the course of our review were swiftly addressed  by NRC staff.  Based on our work, it appears that the agency has a thorough and effective Year 2000 management program.  We were particularly impressed with the methodology applied and documentation maintained regarding systems repaired by the OCIO.
It is expected that OIGs will continue to closely monitor their agencies' progress in addressing Year 2000 issues.  We will continue to monitor NRC's progress and/or participate in their efforts to some degree, as appropriate.  In addition, we will work with NRC staff to develop input  regarding OIG's Year 2000 review efforts for the next quarterly report to Congress and the Office of Management and Budget.
If I can provide any additional information, please call me at 415-5915.
Attachment: As stated
cc:
Commissioner McGaffigan Commissioner Diaz Commissioner Dicus Commissioner Merrifield A. Galante, CIO J. Funches, CFO W. Travers, EDO
Page Last Reviewed/Updated Thursday, March 29, 2012
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees